29

CERTIFICATE OF SERVICE
I, Frances Kuo, a member of the Bar of this Court, hereby declare that on April
15, 2021, as required by Supreme Court Rule 29, I served the enclosed Motion for
Leave to Proceed In Forma Pauperis and Petition for Writ of Certiorari, including
the appendix, on the State of Georgia by serving counsel for the State, Andrew
Pinson, by depositing an envelope containing the above documents in the United
States Mail, with first-class postage prepaid, addressed as follows:

Andrew Pinson
Solicitor General
Department of Law

40 Capitol Square, SW
Atlanta, GA 30334

Respectfully submitted,

Aenea ee
RANCES KUO
Counsel of Record
214 Executive Building
125 East Trinity Place
Decatur, GA 30030
Tel: (404) 378-1241
